No. 20-631
IN THE

Supreme Court of the United States
___________

HOLOGIC, INC., CYTYC SURGICAL PRODUCTS, LLC,
Cross-Petitioners,
v.
MINERVA SURGICAL, INC.,
___________

Respondent.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Federal Circuit
___________

BRIEF IN OPPOSITION
___________

VERA M. ELSON
WILSON SONSINI GOODRICH
& ROSATI, P.C.
650 Page Mill Road
Palo Alto, CA 94304
(650) 493-9300

ROBERT N. HOCHMAN*
CAROLINE A. WONG
One South Dearborn
Chicago, IL 60603
(312) 853-7000
rhochman@sidley.com

EDWARD G. POPLAWSKI
JILLIAN SHERIDAN
STONECIPHER
OLIVIA M. KIM
WILSON SONSINI GOODRICH SIDLEY AUSTIN LLP
1501 K Street, N.W.
& ROSATI, P.C.
Washington, D.C. 20005
633 West Fifth Street
(202) 736-8000
Suite 1550
Los Angeles, CA 90071
(323) 210-2900
Counsel for Petitioner
November 24, 2020
* Counsel of Record

QUESTIONS PRESENTED
In Arista Networks, Inc. v. Cisco Systems, Inc., 908
F.3d 792 (Fed. Cir. 2018), the Federal Circuit concluded that assignor estoppel does not apply in inter
partes reviews. In an inter partes review that is not before this Court, Hologic’s ’183 patent was conclusively
determined to be invalid. The Federal Circuit affirmed
the patent’s invalidity, and Hologic did not seek review
in this Court. Hologic did not challenge Arista in that
proceeding at any time. Hologic’s patent infringement
claim against Minerva had not been litigated to judgment by the time the patent was determined invalid.
Because of the final decision that the ’183 patent was
invalid, Hologic was barred from continuing to assert
the dead ’183 patent against Minerva in this matter.
The questions presented are:
(1) Whether Hologic can challenge Arista in this case
which did not arise in the patent office, and where Hologic failed to challenge Arista in the patent office proceedings that led to the now-final judgment that the
’183 patent is invalid, including the Federal Circuit appeal from that decision, and where Hologic failed to
challenge Arista in this case prior to its petition for rehearing en banc; and
(2) Whether Hologic may evade the final judgment of
invalidity of the ’183 patent and assert that dead patent in litigation against a party in privity with the assignor of that patent, even though its patent may not
be asserted against anyone else.

(i)

ii
PARTIES TO THE PROCEEDING AND RULE
29.6 STATEMENT
Petitioner Minerva Surgical, Inc. (“Minerva”) has no
parent corporation. Boston Scientific Corporation, a
publicly traded company, holds 10 percent of
Minerva’s stock. No other publicly held company owns
10 percent or more of Minerva’s stock.
Respondents are Hologic, Inc. and Cytyc Surgical
Products, LLC.

iii
RELATED PROCEEDINGS
This case is directly related to Minerva Surgical, Inc.
v. Hologic, Inc. et al., No. 20-440 (pet’n for cert. filed
Sept. 30, 2020). Other proceedings that are not directly
related to this case but involve the same parties are:
Minerva Surgical, Inc. v. Hologic, Inc. et al., No.
1:18-cv-00217-JFB-SRF (D. Del.);
Hologic, Inc. et al. v. Minerva Surgical, Inc., No.
1:20-cv-00925-JFB-SRF (D. Del.).

TABLE OF CONTENTS

Page

QUESTIONS PRESENTED .................................

i

PARTIES TO THE PROCEEDING AND RULE
29.6 STATEMENT ............................................

ii

RELATED PROCEEDINGS.................................

iii

TABLE OF AUTHORITIES .................................

v

INTRODUCTION .................................................

1

STATEMENT OF THE CASE..............................

2

REASONS THE PETITION SHOULD BE DENIED ..................................................................

7

I. HOLOGIC’S PETITION DOES NOT ALLOW THE COURT TO REACH ARISTA ....

7

II. THIS COURT SHOULD NOT REVISIT
THE ESTABLISHED RULE THAT AN INVALID PATENT CANNOT BE ASSERTED
AGAINST ANYONE .....................................

14

CONCLUSION .....................................................

22

(iv)

v
CASES

TABLE OF AUTHORITIES

Page

Arista Networks, Inc. v. Cisco Sys., Inc., 908
F.3d 792 (Fed. Cir. 2018) ........... 1, 4, 10, 11, 12
B & B Hardware, Inc. v. Hargis Indus., Inc.,
135 S. Ct. 1293 (2015) .............................. 15, 17
Barnhart v. Sigmon Coal Co., 534 U.S. 438
(2002) ..........................................................
11
Bilski v. Kappos, 561 U.S. 593 (2010) ..........
11
Blonder-Tongue Labs., Inc. v. Univ. of Ill.
Found., 402 U.S. 313 (1971) .................... 19, 20
Cuozzo Speed Techs., LLC v. Lee, 136 S. Ct.
2131 (2016) ............................................... 12, 15
Federated Dep’t Stores, Inc. v. Moitie, 452
U.S. 394 (1981) ...........................................
10
Fresenius USA, Inc. v. Baxter Int’l, Inc., 721
F.3d 1330 (Fed. Cir. 2013) ............ 13, 15, 16, 17
Hologic, Inc. v. Minerva Surgical, Inc., 764
F. App’x 873 (Fed. Cir. 2019) ..................... 3, 4
Johnson v. Watkins, 101 F.3d 792 (2d Cir.
1996) ...........................................................
18
Kimble v. Marvel Entm’t, LLC, 135 S. Ct.
2401 (2015) .................................................
19
Lear, Inc. v. Adkins, 395 U.S. 653 (1969) .... 12, 19
Mentor Graphics Corp. v. Quickturn Design
Sys., Inc., 150 F.3d 1374 (Fed. Cir. 1998) ....
20
Oil States Energy Servs., LLC v. Greene’s
Energy Grp., LLC, 138 S. Ct. 1365 (2018) ....
10
Parklane Hosiery Co. v. Shore, 439 U.S. 322
(1979) ..........................................................
18
Pentax Corp. v. Robison, 135 F.3d 760 (Fed.
Cir. 1998) ....................................................
9
S. Pac. R.R. v. United States, 168 U.S. 1
(1897) ..........................................................
18
Scott Paper Co. v. Marcalus Mfg. Co., 326
U.S. 249 (1945) ......................................... 11, 12

vi
TABLE OF AUTHORITIES—continued

Page

XY, LLC v. Trans Ova Genetics, L.C., 890
F.3d 1282 (Fed. Cir. 2018) ............. 7, 15, 16, 17
STATUTE AND REGULATION
35 U.S.C. § 307(a) ..........................................
Changes to Implement Inter Partes Review
Proceedings, Post-Grant Review Proceedings, and Transitional Program for
Covered Business Method Patents, 77 Fed.
Reg. 48,680 (Aug. 14, 2012) .......................

15

12

LEGISLATIVE MATERIAL
H.R. Rep. No. 112-98, pt. I (2011).................

12

SCHOLARLY AUTHORITIES
Steven M. Auvil, Note, Staying Patent
Validity Litigation Pending Reexamination: When Should Courts Endeavor to Do
So?, 41 Clev. St. L. Rev. 315 (1993) ...........
Michael S. Greve, Exceptional, After All and
After Oil States: Judicial Review and the
Patent System, 26 B.U. J. Sci. & Tech. L. 1
(2020) ..........................................................
Mark D. Janis, Rethinking Reexamination:
Toward a Viable Administrative Revocation System for U.S. Patent Law, 11 Harv.
J.L. & Tech. 1 (1997) ..................................

16

13

16

INTRODUCTION
The Federal Circuit’s assignor estoppel doctrine is illogical and internally inconsistent. The Federal Circuit has adhered to the text of patent statutes in deciding that assignor estoppel has no place in inter
partes reviews. Arista Networks, Inc. v. Cisco Sys., Inc.,
908 F.3d 792, 803 (Fed. Cir. 2018). At the same time,
outside the inter partes review context it has expanded
assignor estoppel at every opportunity, including in
this case. This Court’s intervention is necessary to
bring order to the Federal Circuit’s jurisprudence. As
Minerva has explained in its petition (No. 20-440) and
reply in support of that petition, Minerva’s petition
presents an ideal vehicle for the Court to consider
whether assignor estoppel has any continued validity
and, if so, to clarify the doctrine’s proper boundaries.
This Court should grant that petition.
In contrast, Hologic’s cross-petition does not allow
the Court to consider assignor estoppel at all. The ’183
patent that is the subject of Hologic’s cross-petition
has been conclusively determined to be invalid in a
separate proceeding that is not before this Court.
When that patent was determined to be invalid by the
Federal Circuit in a different appeal, Hologic did not
seek this Court’s review; indeed, it did not even ask the
Federal Circuit in that appeal to abandon its view that
assignor estoppel does not apply in patent office proceedings. Hologic’s cross-petition cannot pierce the final judgment that its ’183 patent is invalid. And, critically, Hologic’s cross-petition does not allow this
Court to review the question presented in Arista,
namely whether assignor estoppel applies in patent office proceedings.
Instead, Hologic’s cross-petition would allow this
Court to review only an issue that is not the subject of

2
controversy. There is no authority for allowing a party
to obtain a judgment of “patent” infringement against
anyone after the “patent” has conclusively been determined to be invalid. Hologic’s cross-petition presents
only its self-serving attack on settled rules regarding
the enforcement of final judgments, not about assignor
estoppel. This Court should, therefore, deny Hologic’s
cross-petition.
STATEMENT OF THE CASE
Inventor Csaba Truckai is responsible for many advances in medical technology for performing endometrial ablations. Minerva’s petition in No. 20-440 concerns the ’348 patent, which claims a device using an
applicator head as part of a “moisture transport” system.1 Hologic’s petition concerns a different patent relating to a separate Truckai invention—the ’183 patent—which covered a specific way of detecting any
perforation in the uterine wall prior to performing an
endometrial ablation. The patent office concluded in
2017 that the ’183 patent is invalid.

1 Minerva’s petition in No. 20-440 contains additional facts
related to Truckai’s innovations and assignments of patent
rights, in particular relating to the ’348 patent. It also explains in
detail why each of the supposed vehicle problems barring this
Court’s consideration of assignor estoppel with respect to the ’348
patent crumble on inspection. Hologic repeats some of those
supposed problems in its cross-petition. See Cross-Pet. 3–4, 11–
12, 29 (suggesting, again without any support in the Federal
Circuit’s decision, that the Federal Circuit concluded that the ’348
patent contains adequate written description and is enabled). To
avoid burdening this Court with repetition, Minerva refers this
Court to the relevant pages of its petition and reply explaining
why its petition presents no obstacles to a comprehensive review
of assignor estoppel. Pet. 28–31 (No. 20-440); Minerva Reply 4–6
(No. 20-440).

3
In 2001, Truckai assigned his interest in the patent
application that issued as the ’183 patent. The ’183 patent was issued four years later, in 2005. Hologic acquired the patent in 2007. Seven years after assigning
his interests, Truckai founded a new company—Minerva—and developed a new, and more effective, technique for detecting perforations in the uterus. Minerva’s endometrial ablation device, which received
FDA approval in 2015, uses this new technique.
Hologic eventually sued Minerva, alleging that
Truckai’s new technique for detecting uterine perforations infringed the ’183 patent.
Minerva then instituted an inter partes review in the
Patent Office under the America Invents Act (“AIA”),
asserting that the ’183 was unpatentable.2 Hologic
fully participated in the inter partes review. Hologic
did not argue that assignor estoppel barred Minerva
from asserting that the ’183 patent was invalid. In
fact, Hologic affirmatively stated that it would “not assert the defense [of assignor estoppel] here in view of
[Patent Trial and Appeal Board (“PTAB”)] decisions
concerning the inapplicability of such arguments before the Board.” Hologic’s Response at 6 n.1, Minerva
Surgical, Inc. v. Hologic, Inc., No. IPR2016-00868
(P.T.A.B. Jan. 11, 2017), 2017 WL 3090850. Hologic
merely purported to “reserve its rights should the
Board or any appellate court determine that such defense is available for purposes of an inter partes review
proceeding.” Id. Ultimately, Hologic never argued that
assignor estoppel should apply.
The PTAB determined in December 2017 that all
claims of the ’183 were unpatentable as obvious. See
Hologic, Inc. v. Minerva Surgical, Inc., 764 F. App’x
2 Minerva Surgical, Inc. v. Hologic, Inc., No. IPR2016-00868
(P.T.A.B. filed Apr. 11, 2016).

4
873 (Fed. Cir. 2019). In 2019, the Federal Circuit affirmed. Id.
Before its decision affirming the invalidity of the ’183
patent, the Federal Circuit decided Arista, 908 F.3d
792, which held that there is “no room for assignor estoppel in the IPR context,” id. at 803. At no point in its
appeal from the PTAB decision did Hologic ask the
Federal Circuit to reverse Arista, either in its briefing
before the panel, or in its petition for rehearing en
banc.
Hologic did not seek this Court’s review. So the decision finding the ’183 patent invalid is final.
Despite allowing the judgment that its patent is invalid to become final, Hologic persisted in continuing
to seek a judgment of infringement of that “patent” in
district court in this litigation. Indeed, Hologic continued to press not only for an award of damages for its
invalid “patent,” but also to enjoin Minerva from selling its novel device based on Hologic’s invalid “patent.”
Hologic did not argue that assignor estoppel should
have applied in the prior inter partes review, contrary
to Arista. Instead, Hologic argued only that while the
PTAB decision “might render the patent invalid
against other parties, assignor estoppel would preclude Minerva from relying on that as a defense to liability.” Hologic never explained what “defense” was at
issue, and never offered any basis for its right to assert
infringement of a “patent” that had been determined
to be invalid, through all appeal rights available to Hologic.
The district court refused to award relief on an invalid patent, and its judgment granted Hologic relief only
for infringement of the ’348 patent at issue in Minerva’s petition. Cross-Pet. App. 7a.

5
In its appeal, Hologic again did not challenge Arista,
arguing instead that Arista applies only in inter partes
reviews and “has nothing to do with the application of
assignor estoppel in a district court.” Hologic Fed. Cir.
Opening Br. 35–36. Nor did Hologic challenge the preclusive effect of PTAB decisions in litigation generally.
In fact, Hologic even admitted and “never challenged”
the “unremarkable proposition that a patentee ordinarily is barred from asserting a patent that has been
found invalid by this Court.” Hologic Fed. Cir. Reply
Br. 9–10. Instead, Hologic asserted that, “while Minerva was not barred from participating in [inter
partes review] proceedings,” Minerva was “precluded
from relying on the [inter partes review] results” in this
matter because of assignor estoppel. Hologic Fed. Cir.
Opening Br. 36. Hologic still never explained what legal authority gave it the right to ask a court to enter a
judgment of infringement of a patent that has been determined to be invalid.
The Federal Circuit affirmed the district court, applying the fundamental principle that “[b]ecause the
’183 patent claims are invalid, Hologic cannot assert
those claims or seek ongoing monetary or injunctive
relief based on infringement.” Pet. App. 15a. The Federal Circuit’s “affirmance of the Board’s invalidity decision . . . ‘renders final a judgment on the invalidity of
the [’183 patent], and has an immediate issue-preclusive effect on any pending or co-pending actions involving the patent,’ including the instant action.” Id. at 16a
(alteration in original). That prior “affirmance of the
Board’s invalidity decision” in the inter partes review
“is dispositive . . . regardless of how the validity question came to this court, and regardless of whether assignor estoppel bars Minerva from challenging the patent’s validity in this district court case.” Id. at 15a.

6
The Federal Circuit’s ruling barring Hologic from continuing to assert infringement of a patent that has
been conclusively determined to be invalid was rooted
in prior Federal Circuit decisions that Hologic did not
challenge. Id. at 15a–17a (applying XY, LLC v. Trans
Ova Genetics, L.C., 890 F.3d 1282 (Fed. Cir. 2018),
Fresenius USA, Inc. v. Baxter Int’l, Inc., 721 F.3d 1330
(Fed. Cir. 2013), and Mentor Graphics Corp. v. Quickturn Design Sys., Inc., 150 F.3d 1374 (Fed. Cir. 1998)).
Judge Stoll wrote separately to note that the Federal
Circuit’s assignor estoppel precedent is at odds with
itself: an assignor may “attack[] the validity of a patent
claim in the Patent Office, but cannot do the same in
district court.” Pet. App. 31a. She pointed to two ways
to resolve this inconsistency: (1) “change the application of [assignor estoppel] in district court” or (2)
“reevaluate our interpretation of the [AIA] [in Arista]
as prohibiting the doctrine of assignor estoppel.” Id. at
32a. Neither the panel opinion nor Judge Stoll’s separate opinion suggested that barring a party from continuing to assert an invalid patent, even against the
patent’s assignor or someone in privity with the assignor, was controversial. And neither opinion suggested it was possible to revisit the rule of Arista in
this case.
Hologic petitioned for rehearing en banc, arguing, for
the first time, that Arista was wrongly decided, and
that the Federal Circuit should reverse Arista and
hold that assignor estoppel applies in inter partes reviews. Hologic Pet. for Reh’g En Banc 1. Alternately,
Hologic also argued that assignor estoppel should be
expanded to allow it to continue to assert its invalid
patent against Minerva in district court litigation. As
Hologic presented the issue, a final judgment of invalidity protects potential defendants against infringement lawsuits as a matter of collateral estoppel, and

7
Hologic argued that the Court should create an “exception” to collateral estoppel which “bars an assignor like
Minerva from asserting collateral estoppel . . . at least
when it was the one who initiated the [inter partes review] proceeding after the infringement litigation had
already begun.” Id. at 15–16 (emphasis omitted). Hologic, yet again, could not provide a basis for its right
to continue to ask a court for a judgment of infringement of an invalid “patent.”
Minerva’s response pointed out that Hologic’s challenge to Arista was forfeited and unavailable in Hologic’s appeal from a district court decision, and that
Hologic sought a fact-specific, unprecedented, and
wholly unsupported departure from long settled law.
The Federal Circuit has previously held, in decisions
that Hologic does not dispute, that a final judgment of
invalidity bars the owner of the patent from continuing
to assert the patent in litigation, and a court may dismiss any such infringement claim sua sponte without
waiting for the defendant to assert any defense of invalidity. XY, LLC, 890 F.3d at 1294. The Federal Circuit denied Hologic’s petition for rehearing.
REASONS THE PETITION SHOULD
BE DENIED
I. HOLOGIC’S PETITION DOES NOT ALLOW
THE COURT TO REACH ARISTA.
Hologic’s cross-petition will not permit this court to
resolve “[t]he central problem in the Federal Circuit’s
precedents,” namely “the conflict between how assignor estoppel is applied in district court and not applied in the Patent Office.” Cross-Pet. 14. Only Minerva’s petition presents an opportunity to resolve the
conflict. This case provides no opportunity for this
Court to reach the issue presented in Arista or even to

8
opine on the issue of assignor estoppel in a way that
would inform how the Federal Circuit and the patent
office should deal with assignor estoppel issues in inter
partes review proceedings.
1. Hologic’s attack on Arista is doubly waived.
First, Hologic litigated the validity of the ’183 patent
in the patent office and specifically chose not to assert
that assignor estoppel barred Minerva from instituting that proceeding and participating in that proceeding all the way through the patent office’s and the Federal Circuit’s conclusion that the patent is invalid. Hologic did not assert assignor estoppel in the patent office and it did not assert assignor estoppel in the Federal Circuit review of the patent office’s conclusion
that the patent is invalid. This was not mere oversight
by Hologic. It was a decision: “[Hologic] will not assert
the defense [of assignor estoppel] here in view of decisions concerning the inapplicability of such arguments
before the Board.” See, e.g., Hologic’s Response at 6
n.1, Minerva Surgical, Inc. v. Hologic, Inc., No.
IPR2016-00868 (P.T.A.B. Jan. 11, 2017), 2017 WL
3090850. If Hologic wanted to challenge the rule of
Arista, the time and place for Hologic to raise that argument was in the inter partes review and in the Federal Circuit appeal from the PTAB ruling. Hologic
failed to do so.
It is no coincidence that Hologic did not ask this
Court to review the Federal Circuit’s decision affirming the PTAB on the basis of assignor estoppel; such a
petition would have been frivolous because Hologic
chose not to raise the issue at any point in those proceedings. It is equally frivolous, perhaps even more so,
for Hologic to suggest that this Court may consider the
issue in this separate proceeding.

9
Second, Hologic did not even try to properly preserve
a challenge to the rule of Arista in this litigation (an
effort that, for all the reasons discussed above, would
have been futile in any event). Hologic challenged
Arista for the first time in its en banc petition in the
Federal Circuit. Throughout this case, Hologic argued
only that, although the ’183 patent is invalid and dead
as to the rest of the world, it somehow remains appropriate for Hologic to obtain a “patent” infringement
judgment and monetary and injunctive relief against
Minerva. Hologic never argued that assignor estoppel
should apply in inter partes review proceedings or otherwise challenged Arista before the district court or
the Federal Circuit panel. Once again, this was no
oversight, but a considered choice. Hologic argued that
“Arista has nothing to do with the application of assignor estoppel in a district court.” Hologic Fed. Cir.
Opening Br. 35–36 (emphasis added). Only after Judge
Stoll suggested that revisiting Arista may be one way
to resolve the inconsistency in the Federal Circuit’s
precedents did Hologic challenge Arista in its en banc
petition. But Judge Stoll rightly did not assert that
Arista could be revisited in this case. Hologic forfeited
any challenge to Arista. See Pentax Corp. v. Robison,
135 F.3d 760, 762 (Fed. Cir. 1998) (arguments raised
for the first time in a petition for rehearing are forfeited).
2. Even apart from waiver, Hologic’s challenge to
Arista cannot be raised here, because Arista played no
role in the outcome of this case. This case did not arise
in the patent office, and Arista, as Hologic argued,
therefore did not apply. Hologic’s grievance is with the
legal consequences of a final judgment of invalidity.
What mattered in this case was that, by the time Hologic sought damages and a permanent injunction

10
based on the ’183 patent, the ’183 patent had conclusively been determined to be invalid. The Federal Circuit correctly did not look beyond that final judgment
to reexamine the grounds on which it rested.
Hologic’s challenge to Arista is nothing more than a
collateral attack on the already final judgment stemming from the inter partes review proceeding that finally determined that the ’183 patent is invalid. When
Hologic asks this Court to reconsider Arista in this
case, it is actually asking this Court to re-open and reconsider the judgment in that case. But it is a bedrock
principle that a “final judgment on the merits of an action precludes the parties . . . from relitigating issues
that were or could have been raised in that action.”
Federated Dep’t Stores, Inc. v. Moitie, 452 U.S. 394,
398–99 (1981). This “is a rule of fundamental and substantial justice, ‘of public policy and of private peace,’
which should be cordially regarded and enforced by the
courts.” Id. at 401 (quoting Hart Steel Co. v. R.R. Supply Co., 244 U.S. 294, 299 (1917)). Hologic had a full
and fair opportunity to attack Arista in the case where
it could have applied. Hologic may not launch a collateral attack against the judgment in that case here.
3. Even if this case provided a vehicle for considering
whether assignor estoppel applies in inter partes reviews, and it does not, there is no need for this Court
to intervene, because Arista is rightly decided.
As Arista recognized, assignor estoppel cannot bar
an assignor from instituting an inter partes review because the governing statute allows “a person who is
not the owner of a patent” to institute an inter partes
review. Arista, 908 F.3d at 803–04 (quoting 35 U.S.C.
§ 311(a)). As this Court has explained “[a]ny person
other than the patent owner can file a petition for inter
partes review.” Oil States Energy Servs., LLC v.
Greene’s Energy Grp., LLC, 138 S. Ct. 1365, 1371

11
(2018) (emphasis added). And an assignor, by definition, is “a person who is not the owner of a patent.”
Arista followed this Court’s consistent direction that
“[w]here ‘the statutory language is plain, [courts] must
enforce it according to its terms.’” Arista, 908 F.3d at
803 (quoting King v. Burwell, 135 S. Ct. 2480, 2489
(2015)); see also Bilski v. Kappos, 561 U.S. 593, 602–
03 (2010) (“[C]ourts ‘should not read into the patent
laws limitations and conditions which the legislature
has not expressed.’”).
Hologic urges the Court to look not to the statutory
text but rather to assignor estoppel’s history in the
common law, arguing that the Congress legislated
“with an expectation that” assignor estoppel would apply because the “common-law principle is well established.” Cross-Pet. 21–22. This argument fails for a
number of reasons. First, the text of the AIA is plain,
and “[w]hen the words of a statute are unambiguous, . . . judicial inquiry is complete.” Barnhart v. Sigmon Coal Co., 534 U.S. 438, 462 (2002). Indeed, in
Arista, the Federal Circuit concluded that “even assuming that assignor estoppel could be considered
such a well-established common law principle” that
Congress legislated with it in mind, “a statutory purpose to the contrary is evident” from the AIA’s text.
908 F.3d at 803.
In addition, the essential premise for Hologic’s argument—that Congress has legislated against the backdrop of a settled common law principle—does not hold.
This Court has been calling assignor estoppel into
question since at least 1945. Scott Paper questioned
the “extent [assignor estoppel] may be deemed to have
survived the Formica decision.” Scott Paper Co. v.
Marcalus Mfg. Co., 326 U.S. 249, 254 (1945). Justice
Frankfurter, in dissent, concluded that Scott Paper in
effect eliminated assignor estoppel because, under the

12
majority’s reasoning “the assignor in raising invalidity
in a suit for infringement is just a part of the general
public and can ask the Court to enforce every defense
open to the rest of the public.” Id. at 261 (Frankfurter,
J., dissenting). This Court later agreed: the “Scott exception had undermined the very basis of” assignor estoppel. Lear, Inc. v. Adkins, 395 U.S. 653, 666 (1969).
In determining that assignor estoppel does not apply
in inter partes reviews, Arista itself recognized that assignor estoppel has a fraught history, noting that “in
Lear, Inc. v. Adkins, the Supreme Court appeared to
cast some doubt on the doctrine’s continued viability”
and that “court decisions post-Lear ‘reveal[ed] some
uncertainty about the continued vitality of the doctrine.’” 908 F.3d at 802 (alteration in original) (quoting
Diamond Sci. Co. v. Ambico, Inc., 848 F.2d 1220, 1223
(Fed. Cir. 1988)).
Through the AIA, Congress intended to “protect the
public’s ‘paramount interest in seeing that patent monopolies . . . are kept within their legitimate scope,’” by
creating an avenue for the efficient elimination of bad
patents. Cuozzo Speed Techs., LLC v. Lee, 136 S. Ct.
2131, 2144 (2016) (omission in original) (quoting Precision Instrument Mfg. Co. v. Auto. Maint. Mach. Co.,
324 U.S. 806, 816 (1945)); see H.R. Rep. No. 112-98, pt.
I, at 39–40 (2011) (inter partes review is an “efficient
system for challenging patents that should not have
issued”); Changes to Implement Inter Partes Review
Proceedings, Post-Grant Review Proceedings, and
Transitional Program for Covered Business Method
Patents, 77 Fed. Reg. 48,680, 48,680 (Aug. 14, 2012)
(“The purpose of the AIA . . . is to establish a more efficient and streamlined patent system that will improve patent quality and limit unnecessary and counterproductive litigation costs.”). In this context, the

13
Court should be especially wary about reading an exception into statutory text that saves bad patents from
review.
Hologic’s extensive arguments about why Arista is
problematic—that it will lead to forum shopping, races
to judgment, and duplicative litigation, Cross-Pet. 3,
20–21—are not problems with Arista, but problems
with the Federal Circuit applying assignor estoppel
differently in different forums. Eliminating assignor
estoppel in district court, as Minerva’s petition asks,
would eliminate these problems.
Regardless, Arista is not to blame for concurrent litigation and inter partes reviews. It is widely recognized that the AIA itself was crafted to incentivize defendants in patent infringement litigation to file inter
partes reviews, and that, in fact, Congress fully intended for them to do so. Fresenius USA, Inc., 721 F.3d
at 1339 (“Congress expected reexamination to take
place concurrent with litigation . . . .”); Michael S.
Greve, Exceptional, After All and After Oil States: Judicial Review and the Patent System, 26 B.U. J. Sci. &
Tech. L. 1, 36 (2020) (“[A] demand for inter partes review . . . is the predictable and usual response to a judicial infringement proceeding. Congress in the AIA
fully intended that result, and it clearly meant to facilitate administrative patent invalidation.” (footnote
omitted)). There is nothing nefarious about Minerva,
or any other defendant accused of patent infringement, filing an inter partes review, precisely as Congress intended.

14
II. THIS COURT SHOULD NOT REVISIT THE
ESTABLISHED RULE THAT AN INVALID
PATENT CANNOT BE ASSERTED AGAINST
ANYONE.
Hologic proposes a different issue as a fallback, in an
effort to keep its hope alive of collecting damages for
infringement of an invalid patent. But that issue is one
over which there is no controversy. As Hologic would
have it, an assignee’s right to sue the assignor for patent infringement survives a conclusive determination
that the patent is invalid. Cross-Pet. (I), 25–27. That
novel and highly illogical proposal does not warrant
this Court’s review.
1. Hologic cites no court ruling, concurrence, or dissent that adopts or encourages its proposed view—
which is not surprising given that it appears to be a
rule devised for Hologic’s convenience rather than in
pursuit of any sound patent law policy. See Cross-Pet.
26. The district court and the Federal Circuit roundly
rejected Hologic’s proposal, Pet. App. 15a–16a, and
Judge Stoll did not suggest that it was a viable way to
bring coherence to the Federal Circuit’s precedent, id.
at 31a–32a. Hologic’s proposed fact-specific exception,
drawn narrowly to serve Hologic’s ends in this case,
does not meet this Court’s criteria for granting a petition for certiorari.
2. Hologic’s proposed exception also does not solve
the problem Hologic says warrants this Court’s review.
It does not “straighten out the Federal Circuit’s divergent precedents on the doctrine of assignor estoppel in
different forums” but would instead allow the Federal
Circuit to continue to apply different rules in different
forums. Cross-Pet. 3.

15
Hologic’s proposal would not clarify the law; it would
merely complicate it in ways that make no sense. Assignors could pursue invalidity of the patents they
have assigned in the patent office, but doing so successfully would still leave them, and those in privity
with them, subject to patent infringement lawsuits for
violating the invalidated patent. No language in any
patent-related statute supports such a bizarre state of
affairs, and no common law principle supports it. Once
again, it appears to be nothing more than a jerryrigged set of rules that gives Hologic what it wants.
Indeed, Hologic’s cross-petition actually proposes to
upset well-settled and sound legal principles. When an
inter partes review results in a final determination
that a patent claim is invalid, that claim can no longer
be enforced through litigation. XY, LLC, 890 F.3d at
1294; Fresenius USA, Inc., 721 F.3d at 1340. When a
claim is determined to be invalid, the AIA requires the
Director of the PTO to “issue and publish a certificate
canceling any claim of the patent finally determined to
be unpatentable.” 35 U.S.C. § 307(a). Because the “existence of [a] valid and interfering patent[]” is “a necessary condition for [an infringement] action,” a decision mandating cancelation of a patent claim “require[s] . . . dismissal” of any suit alleging infringement of the claim. Fresenius USA, Inc., 721 F.3d at
1340 (quoting Slip Track Sys., Inc. v. Metal Lite, Inc.,
159 F.3d 1337, 1340 (Fed. Cir. 1998)).
Under this Court’s precedents, as long as the patent
holder had a full and fair opportunity to participate in
an inter partes review, a final judgment in such a review has preclusive effect in other actions. See B & B
Hardware, Inc. v. Hargis Indus., Inc., 135 S. Ct. 1293,
1310 (2015) (Trademark Trial and Appeal Board
(TTAB) decision has preclusive effect); Cuozzo Speed
Techs., LLC, 136 S. Ct. at 2143 (“[A] decision to cancel

16
a patent normally has the same effect as a district
court’s determination of a patent’s invalidity.”); see
also XY, LLC, 890 F.3d at 1294 (holding that a patent
office determination of invalidity, affirmed by the Federal Circuit, “collaterally estops [a patent holder] from
asserting the patent in any further proceedings”).
Indeed, both “the language and legislative history of
the [AIA] show that Congress expected . . . that cancellation of claims during reexamination would be binding in concurrent infringement litigation.” Fresenius
USA, Inc., 721 F.3d at 1339; see also Mark D. Janis,
Rethinking Reexamination: Toward a Viable Administrative Revocation System for U.S. Patent Law, 11
Harv. J.L. & Tech. 1, 82 (1997) (“[A] final decision in a
reexamination striking down claims binds courts in
pending and future litigation.”); Steven M. Auvil,
Note, Staying Patent Validity Litigation Pending Reexamination: When Should Courts Endeavor to Do So?,
41 Clev. St. L. Rev. 315, 326–37 (1993) (a decision to
cancel claims “renders the claims unenforceable in the
pending litigation”).
Hologic does not challenge this general rule. As Hologic put it, “Hologic has never challenged” the “unremarkable proposition that a patentee ordinarily is
barred from asserting a patent that has been found invalid by [the Federal Circuit].” Hologic Fed. Cir. Reply
Br. 9–10. Instead, Hologic argues for an extra-ordinary
exception to the rule that it admits, without the novel
exception it seeks, would bar it from asserting the ’183
patent.
As Hologic would have it, assignor estoppel bars the
assignor from pointing to the judgment of invalidity as
a defense. But when a patent ceases to exist, a defendant need not assert that fact as a defense. It is the
plaintiff that can no longer assert infringement. An assignor therefore need not raise this issue at all. The

17
court can raise it sua sponte. XY, LLC, 890 F.3d at
1294. The reason Hologic cannot obtain a judgment of
infringement based on its invalid “patent” is, in the
words of Fresenius, because Hologic no longer has any
“cause of action” for patent infringement. Fresenius
USA, Inc., 721 F.3d at 1340. That is why both Fresenius and XY say such a claim is moot. Id.; XY, LLC,
890 F.3d at 1295. The district court here did not enter
a judgment that the ’183 patent is invalid. The claim
was dismissed as moot.
This leaves Hologic’s gestures at some supposed constitutional concerns with affording preclusive effect to
judgments arising from inter partes reviews, CrossPet. 21, 25, doubly irrelevant. Hologic’s infringement
claim was merely mooted; the judgment here does not
declare the patent invalid because that had already
happened. In addition, Hologic does not actually raise
any constitutional challenges. Hologic cannot do so,
because it plainly forfeited any constitutional issue by
failing to raise any such challenge below, and even conceded that judgments arising from inter partes reviews
generally have preclusive effect. See B & B Hardware,
Inc., 135 S. Ct. at 1304 (petitioner forfeited challenge
to the constitutionality of affording preclusive effect to
judgments arising from inter partes reviews that was
not raised below).
3. When viewed in its proper light, it becomes clear
that Hologic’s fallback argument in its cross-petition is
not really an argument about assignor estoppel at all.
It is a radical argument about collateral estoppel. To
fit its novel collateral estoppel argument into an assignor estoppel framework, Hologic argues that “[i]n
trying to assert collateral estoppel, Minerva was asserting the invalidity of the patent rights it assigned.”
Cross-Pet. 26.

18
Hologic fundamentally misunderstands collateral
estoppel. Collateral estoppel does not turn on the merits of the prior judgment. In fact, where collateral estoppel applies, courts are not permitted to look beyond
the prior judgment to reexamine the bases of that
judgment. See Johnson v. Watkins, 101 F.3d 792, 795
(2d Cir. 1996). Allowing reexamination of the merits
would eviscerate collateral estoppel by allowing parties to relitigate issues that have been decided. By
alerting the court that the ’183 patent had finally been
determined to be unpatentable, Minerva was not “asserting invalidity.” Minerva merely pointed the Court
to the judgment of invalidity entered elsewhere, and
asserted that the ’183 patent therefore could not form
the basis of a judgment of patent infringement. Even
as a matter of collateral estoppel, Hologic could not dispute what the judgment says on its face, and no court
could look behind the prior judgment to reconsider the
issue of validity.
What happened is consistent with settled collateral
estoppel law. And there is no basis for extending the
reach of assignor estoppel to disturb the straightforward operation of collateral estoppel here. (Once
again, Hologic’s claim also failed because Hologic cannot assert infringement of its invalid patent in the first
place.) Collateral estoppel’s long and consistent record
stands in stark contrast to assignor estoppel’s spotty
history. Collateral estoppel has long served the crucial
purposes of “protecting litigants from the burden of relitigating an identical issue . . . and of promoting judicial economy by preventing needless litigation.” Parklane Hosiery Co. v. Shore, 439 U.S. 322, 326 (1979); S.
Pac. R.R. v. United States, 168 U.S. 1, 48–49 (1897)
(explaining that collateral estoppel is “demanded by
the very object for which civil courts have been estab-

19
lished, which is to secure the peace and repose of society by the settlement of matters capable of judicial determination” and that its “enforcement is essential to
the maintenance of social order”). Assignor estoppel, in
contrast, is rooted in contractual equities between private parties which this Court has already recognized
“do not weigh very heavily when they are balanced
against the important public interest in permitting full
and free competition” by eliminating invalid patents.
Lear, 395 U.S. at 670; see Kimble v. Marvel Entm’t,
LLC, 135 S. Ct. 2401, 2407 (2015) (discussing the long
line of cases holding that parties which contracted not
to challenge patents can nevertheless challenge patents).
This Court has therefore consistently questioned
and never applied assignor estoppel to bar an invalidity defense, see Minerva Pet. 18–20 (No. 20-440).
Meanwhile, the Court has decided that once a patent
is determined invalid, that determination has broad
preclusive effect.
In Blonder-Tongue Laboratories, Inc. v. University of
Illinois Foundation, 402 U.S. 313 (1971), the Court rejected a rule that the holder of a patent determined to
be invalid in a prior proceeding was collaterally estopped from asserting the patent against only the defendant in that prior proceeding. Id. at 349–50. Limiting the preclusive effect of a judgment of invalidity was
inconsistent with the public interests the patent law
serves. Id. at 343 (“The far-reaching social and economic consequences of a patent . . . give the public a
paramount interest in seeing that patent monopolies . . . are kept within their legitimate scope.” (quoting Precision Instrument Mfg. Co., 324 U.S. at 816))
Pointing to Lear and its abolition of licensee estoppel,
the Court reiterated the public interest in “eliminating

20
obstacles to suit by those disposed to challenge the validity of a patent.” Id. at 345. Because a narrow view
of collateral estoppel allowed holders of invalid patents
to continue to reap supra-competitive benefits, it could
not stand: “federal law requires[] that all ideas in general circulation be dedicated to the common good unless they are protected by a valid patent,” id. (quoting
Lear, 395 U.S. at 668), so “the holder of a patent should
not be insulated from the assertion of defenses and
thus allowed to [benefit from] the use of an idea that
is not in fact patentable,” id. at 349–50. Since at least
1998, the Federal Circuit has recognized that, under
Blonder-Tongue, whether or not the defendant previously assigned the patent: “assignor estoppel does not
limit [assignors’] ability to defend themselves” by “arguing that the patentee is itself collaterally estopped
from asserting a patent found invalid in a prior proceeding.” Mentor Graphics Corp., 150 F.3d at 1379–80.
Once again, Hologic’s fallback argument in its crosspetition is not asking this Court to resolve a disputed
issue in the law. It is an attempt to get this Court to
upset settled law for no reason other than to benefit
Hologic.
4. It is hard to imagine an approach more inconsistent with sound patent policy than Hologic’s. Hologic’s proposal would create uncertainty and undermine the finality of patent judgments. It would reduce
incentives for defendants to use inter partes review
proceedings in precisely the way Congress intended—
to eliminate patents that do not provide the value necessary to support the patent holder’s monopoly. And,
most importantly, it would prop up bad patents as barriers to innovation, despite conclusive findings that
they are not patents and are not worthy of delivering
such supra-competitive benefits.

21
Importantly, Hologic conceals the breadth of the
novel rule of law it seeks. The patent office proceedings
that resulted in invalidation of the ’183 patent here
was initiated by Minerva. But nothing in the new rule
Hologic seeks limits its operation to cases in which the
patent office proceedings were initiated by the assignor or someone in privity with the assignor. If some
third party had initiated the proceedings, and the patent were invalidated by the patent office, the contorted view of collateral estoppel Hologic seeks would
still allow Hologic to sue Minerva for its invalid patent.
The timing of the lawsuit would not matter either. Hologic could begin its patent infringement lawsuit
against Minerva after its patent was deemed invalid.
Even a final judgment of invalidity in court obtained
by a third party would not, on Hologic’s view of the law,
prevent Hologic from suing Minerva on the invalidated
patent. There is no reason for this Court to entertain
such a radical proposal.
In addition, in this case Hologic asked the district
court to enter a permanent injunction based on an invalid patent excluding a competitor from the market.
That injunction, Hologic proposed without any sense
of irony, would have lasted until the patent expired.
Hologic proposes an entirely new legal beast: a zombie
patent with an expiration date. The Court should not
intervene to entertain Hologic’s bizarre proposal.

22
CONCLUSION
For the foregoing reasons, Hologic’s petition for a
writ of certiorari should be denied.
Respectfully submitted,
VERA M. ELSON
WILSON SONSINI GOODRICH
& ROSATI, P.C.
650 Page Mill Road
Palo Alto, CA 94304
(650) 493-9300

ROBERT N. HOCHMAN*
CAROLINE A. WONG
One South Dearborn
Chicago, IL 60603
(312) 853-7000
rhochman@sidley.com

EDWARD G. POPLAWSKI
JILLIAN SHERIDAN
STONECIPHER
OLIVIA M. KIM
WILSON SONSINI GOODRICH SIDLEY AUSTIN LLP
1501 K Street, N.W.
& ROSATI, P.C.
Washington, D.C. 20005
633 West Fifth Street
(202) 736-8000
Suite 1550
Los Angeles, CA 90071
(323) 210-2900
Counsel for Petitioner
November 24, 2020
* Counsel of Record

